     Compliance with Selected Laws Governing Federal Civilian Employment
                        Report No. 04-05, June 23, 2004

                                    INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit to
assess compliance with selected laws governing Federal civilian employment at the
Railroad Retirement Board (RRB).

Background

The RRB is an independent agency in the executive branch of the Federal Government.
The RRB administers comprehensive income security programs for the nation’s railroad
employees, retirees and their families.

To accomplish its mission the agency employs professional, managerial, technical and
clerical workers. Agency personnel include claims examiners, information technology
specialists, accountants, auditors, and actuaries at its headquarters as well as a
network of contact representatives located in 53 field offices across the country. During
fiscal year 2003, the RRB paid approximately $91 million in total personnel
compensation and benefits to approximately 1,135 agency employees.

The Bureaus of Fiscal Operations (BFO) and Human Resources (BHR) share
responsibility for agency payroll processing. BFO plans, directs and coordinates payroll
preparation, pre-audit of the payrolls, and issuance of financial reports. BHR
administers position management, classification, and pay programs. The RRB’s
personnel/payroll operations are supported by the TESSERACT system, a mainframe
computer application. BFO and BHR have both appointed system administrators who
are responsible for system maintenance and security within their respective bureaus.

The RRB processes payroll using an exception-based system. The automated system
is pre-programmed to pay each employee for a full work schedule, typically 80 hours
per pay period unless an exception, such as absence, holiday, or overtime is recorded.
The various operating units within the agency are responsible for entering exceptions to
the automated system and maintaining supporting documentation.

Most organizational units document entries to the payroll system with a time and
attendance sheet that is completed for each unit on a daily basis. The time and
attendance sheet is used to account for the number of work hours scheduled, the hours
actually worked and any absences or overtime. Most organizations create a record that
identifies actual start and end times as a basis for calculating hours worked and
reconciliation of exceptions.

The Office of Management and Budget, in Bulletin 01-02,“ Audit Requirements for
Federal Financial Statements,” requires the OIG to perform tests of compliance with
certain provisions of law governing compensation of Federal civilian employees as part
of its annual audit of the RRB’s financial statements. This audit supports the OIG’s
annual audit of the agency’s financial statements. The RRB’s strategic plan identifies

                                            1

ensuring the effectiveness, efficiency, and security of operations as an objective within
the agency’s larger goal of serving as responsible stewards of the trust funds and
resources under agency control. This audit also supports that objective.

Audit Objective

The objective of this audit was to assess compliance with selected provisions of law
governing Federal civilian employment.

Scope
The scope of this review was agency compliance during FY 2004 with respect to the
following provisions of Federal law set forth in the United States Code (USC), Title 5,
Part III:
    • Subpart D (Pay and Allowances), Chapter 53;
           Subchapter III, Section 5332, (The General Schedule);
           Subchapter IV Section 5343, (Prevailing rate determinations, wage
           schedules, night differentials);
    • Subpart E (Attendance and Leave), Chapters 61 and 63;
    • Subpart G (Insurance and Annuities), Chapters 83, 84, 87, and 89; and
    • Subpart C (Employee Performance), Chapter 45.
We also considered the applicability of the minimum wage requirements established in
USC Title 29, Chapter 8, Section 206.

The Office of Management and Budget in “Audit Requirements for Federal Financial
Statements” mandates annual tests of compliance with the pay and allowance
provisions applicable to employees under the General Schedule and/or subject to
prevailing rate determinations, wage schedules or night differentials. We limited our
tests of compliance to that population of employees for all provisions of law within the
scope of this audit.

METHODOLOGY

To accomplish our objective, we assessed the effectiveness of internal control by
identifying applicable controls and testing selected controls on a sample basis. We also
tested a random sample of employees for compliance with each provision of law within
the scope of this audit. We used acceptance sampling to assess compliance with the
laws identified above and the effectiveness of internal control. The sample review
included:

    • verification of General Schedule pay rates and wage grade schedules;
    •	 review of file documentation supporting rate determinations, withholding and
        deductions;
    • verification of approvals over personnel and payroll actions;


                                            2

      •	 comparison of processed payroll transactions with supporting documentation;
          and
      • recomputation of payroll deductions for retirement and life insurance benefits.

Our sampling methodology is presented in Appendix I.

We performed additional testing of infrequently occurring transactions and control
activities. These tests included100% review of:
     •   payroll correction forms;
     •   sustained superior performance awards;
     •	 recomputation of gross salary for employees subject to manual handling during
        the annual automated cost-of-living operation;
     •   recomputation of night differential pay; and
     •	 verification of pay rate accuracy for employees who were transferred to the
        General Schedule from the performance management and recognition system.

We also reviewed documentation supporting the periodic reconciliation of payroll
transactions as recorded in the automated payroll/ personnel system with expenses
recorded for personnel compensation and benefits in the general ledger.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the audit objective. Fieldwork was performed at the RRB
headquarters in Chicago, Illinois during February through April 2004.

                                   RESULTS OF EVALUATION

The RRB complies with the laws governing Federal civilian employment within the
scope of this audit. The agency has implemented the General Schedule, makes
prevailing rate determinations, uses wage schedules and pays night differentials as
mandated by USC Title 5. The agency is generally in conformance with established
requirements for attendance and leave, insurance annuities and employee
performance. We identified no instances in which the agency was non-compliant with
the minimum wage provisions set forth in USC Title 29.1

However, internal control is not adequate to ensure that payroll transactions have been
accurately processed in accordance with established procedures and are supported by
a complete audit trail. We also noted that, in several cases, expected documentation
had not been prepared to fully document BHR’s decisions concerning life insurance
elections and the effect of a break in Federal service.

The details of our findings and recommendations for corrective action follow. BFO has
agreed to address the audit recommendations as part of the re-evaluation of payroll
procedures and controls being conducted pursuant to the agency’s conversion to a new

1
    There were no employees being paid minimum wage during the period subject to review.

                                                   3

payroll system. BHR has already prepared missing documentation for the personnel
files questioned by the audit. The full text of management’s response is presented in
the appendices to this report.


Time and Attendance Not Properly Authorized Prior to Input

Time and attendance is not properly authorized because responsible staff accept time
and attendance data for input without the required signatures. There is also no external
oversight of this process that would disclose and remedy the condition. As a result,
accountability for errors and omissions in the agency payroll has not been adequately
ensured.

The RRB processes payroll using an exception-based system. The automated system
is programmed to pay each employee for a full 80 hours each pay period unless an
exception, such as absence, holiday, or overtime is recorded. Responsibility for
documenting attendance, time worked and leave rests with the individual organizational
units. Personnel within the various working units enter the exceptions to the automated
system and maintain supporting documentation.

Established agency procedure requires each daily timesheet be signed by both the
individual who prepared it and by a supervisor prior to input into the payroll processing
system. We traced 113 payroll transactions to the supporting timesheets and observed
that, in 17 cases, one of the two required signatures was missing. In eight cases, the
time and attendance record did not include the signature of the preparer. In nine cases,
the second signature had been omitted.

The standard timesheet form also provides for the signatures of a data entry clerk and a
data entry supervisor. However, agency procedure does not require that responsibility
for data preparation and data input be separated. As a result, we observed that the
data input is typically performed by the same person who prepares the timesheet.
Internal control could be strengthened if data input were performed by a third person
who could reject unauthorized data.

Recommendations

We recommend that BFO:

   1. 	 remind agency personnel of the proper authorization of time sheets under current
        procedure;
   2. 	 revise agency procedure to separate responsibility for data preparation and input;
        and
   3. 	 implement an oversight process to disclose non-conformance with agency
        procedure and provide feedback to staff and management responsible for payroll
        preparation and processing.




                                            4

Management’s Response

BFO plans to address the OIG’s recommendations as part of its evaluation of agency-
wide payroll guidance, Administrative Circular BFO-4 and the Payroll User Guide which
is being conducted in connection with the implementation of a new payroll system.


Controls Are Not Adequate to Ensure Payroll Accuracy

Audit tests disclosed that the present system of supervisory approval is not sufficient to
ensure that payroll data is accurate and processed in compliance with agency
procedure. The primary control, a supervisory review, evidenced by signature, is
ineffective. As a result, errors may occur and go uncorrected.

The Federal government pays General Schedule employees at an hourly rate for time
worked based on a pay scale established by Congress. Most employees are subject to
a 40 hour work week under which payment for hours not actually worked are
compensated pursuant to statutory provisions for paid leave. In addition, time worked in
excess of 40 hours is compensated pursuant to laws governing overtime including the
award of compensatory leave.

The agency’s exception-based payroll processing system is supported by time and
attendance records that are prepared and maintained in the employee’s organizational
unit. The time and attendance record is used to account for the hours worked by each
employee and identifies any absences or overtime and the manner in which those
exceptions will be recorded.

We compared a randomly selected sample of 113 employee payrolls with supporting
documentation.2 Our tests disclosed 17 instances in which errors or inconsistencies led
us to conclude that the payroll was or, may have been, inaccurate. The exceptions
identified during the sample review follow.
    •	 Five employees worked less than their scheduled hours but no leave was
       charged.
    • Two employees were charged for leave in excess of the time absent from work.
    • One employee was paid but had not signed-in or signed-out.
    • Two employees signed-out but did not record the time.
    •	 One employee’s holiday absence was incorrectly recorded using the code for
       administrative leave instead of official leave.
    •	 One employee worked in a district office that did not create a time and
       attendance record for October 13, 2003 (Columbus Day) although it is agency
       procedure to create such records to document official leave for Federal holidays.


2
 An “employee payroll” is the payroll processed for one employee during a single pay period. There
were 8 pay periods subject to audit testing. See Appendix I for a more detailed discussion of sampling
methodology and results.

                                                   5

    •	 In three cases, a district office had created payroll entries for compensatory time
        worked/taken that were not entirely logical and appear to be errors.
    •	 In one case, a short absence, excused due to inclement weather, was incorrectly
        charged as time worked instead of administrative leave.

We also noted several entries in the time and attendance sheets of a single employee
that lacked credibility because they appeared to have been altered and/or recorded out
of sequence.

The agency has published procedures to guide staff in the preparation of time and
attendance records and the system of supervisory approvals is intended to ensure a
review for accuracy prior to processing. However, those controls are not fully effective.
Employees do not receive periodic feedback concerning their implementation of existing
procedure and the timesheets related to 15 of the 17 exceptions questioned by the audit
had been fully approved.

We estimate the annual monetary impact of payroll errors of the type identified by the
audit at approximately $50,000 per year.3

Recommendation

We recommend that BFO:

    4. 	 implement an oversight process to provide feedback to staff and management
         concerning errors in the payroll preparation process.

Management’s Response

BFO plans to address the OIG’s recommendation as part of its evaluation of agency-
wide payroll guidance, Administrative Circular BFO-4 and the Payroll User Guide which
is being conducted in connection with the implementation of a new payroll system.


Some Personnel Documentation Had Not Been Filed

Our tests included a review of personnel folders to confirm that the salary and benefit
information used to compute the payroll were correct. The 113 personnel files reviewed
did not include documentation to support the life insurance elections of five employees
or to explain a discrepancy in the service compensation date of one employee.

We expected personnel files to include documentation supporting all personnel
decisions. BHR reviewed the personnel files for the questioned cases and have
advised us that they should have prepared substitute life insurance election forms to
document the automatic enrollment of a newly hired employee who had not completed

3
  This estimate is based on the total monetary impact of the seven cases in which auditors identified
discrepancies in the computation of hours worked and/or leave charged. The magnitude of errors ranged
between $6.29 and $66.88 per individual payroll.

                                                  6

an election form themselves.4 They have also explained that the discrepancy in the
service compensation date was due to a break in service that necessitated a special
computation for an employee who had transferred to the RRB from another Federal
agency. That computation should have been documented in the personnel file.

 We reviewed several hundred personnel documents during this audit and the
questioned items were limited to the six exceptions discussed above. Although
relatively few in number, and limited to specific types of paperwork, these exceptions
warrant some attention because, in general, BHR expects a very high level of accuracy
in recording and documenting personnel data.

Recommendation

We recommend that BHR:

    5. 	 review the exceptions identified by the audit and prepare file documentation as
         appropriate.

Management’s Response

The six files questioned by the audit have been corrected to reflect the appropriate
documentation.




4
  Absent a specific election, employees are automatically enrolled for the basic life insurance to which
they are entitled.

                                                     7

                                                                               Appendix I

                                Sampling Methodology

We used acceptance sampling to assess internal control and compliance. We used a
two step methodology to determine whether internal controls had been effective in at
least 95% of payroll transactions.

Sampling Unit:              one employee/paycheck


Number of Employees:        1,048


Number of Pay Periods:          8


Sample Universe: 8,384              (Number of Employees X Number of Pay Periods)


Confidence level:           90%


Tolerable Error:             5% (minimum 95% accuracy)


Sampling Methodology

We used two-step acceptance sampling.

In step #1, we tested each of 59 randomly selected employee payrolls for compliance
and operation of internal control. If no errors were identified, we concluded, with 90%
confidence, that controls had been operating and effective in at least 95% of cases or
that at least 95% of payroll transactions had been processed in compliance with the law.

When errors or exceptions were identified in step #1, we expanded testing by adding 54
items to the sample, thus basing our final conclusion on a total of 113 items. If no more
than two (2) errors or exceptions were identified in the larger sample, we were able to
conclude, with 90% confidence, that controls had been operating and effective in at
least 95% of cases or that at least 95% of payroll transactions had been processed in
compliance with the law.

If we identified three (3) or more errors/exceptions in step #2, we concluded that internal
controls were not adequate to insure that at least 95% of payroll transactions would be
processed in conformance with the law.



                                            8

